OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
BASIC EDUCATION
ACTIVITIES


AUDIT REPORT NO. 6-263-05-002-P
MARCH 31, 2005




CAIRO, EGYPT
Office of Inspector General


    March 31, 2005

    MEMORANDUM

    TO:                Director, USAID/Egypt, Kenneth C. Ellis

    FROM:              Regional Inspector General/Cairo, David H. Pritchard /s/

    SUBJECT:           Audit of USAID/Egypt’s Basic Education Activities
                       (Report No. 6-263-05-002-P)

    This memorandum transmits our final report on the subject audit. In finalizing our report,
    we considered your comments on our draft report and have included your response in its
    entirety in Appendix II.

    This report includes one recommendation to the Director, USAID/Egypt, to revise the
    Performance Management Plan and succeeding Annual Report to correct the errors
    noted by this audit. Based on the actions taken by the Mission to implement the
    recommendation, both a management decision and final action have been reached for
    Recommendation No. 1.

    I appreciate the cooperation and courtesy extended to my staff during the audit.
CONTENTS
Summary of Results ............................................................................................................1

Background .........................................................................................................................2

Audit Objectives...................................................................................................................2

Audit Findings ......................................................................................................................3

What is the status of USAID/Egypt’s basic education activities? ........................................3

Had USAID/Egypt’s basic education activities progressed toward their intended results? 4

     Performance Management Plan and Annual Report Need Correction ..........................5

Evaluation of Management Comments .............................................................................7

Appendix I – Scope and Methodology ...........................................................................…8

Appendix II – Management Comments ...........................................................................10

Appendix III – Fiscal Year 2003 Basic Education Activities
Performance Indicators and Results...............................................................................13
SUMMARY OF RESULTS
The Regional Inspector General/Cairo performed this audit to (1) determine the status of
USAID-financed basic education activities in Egypt and (2) determine if the activities had
progressed towards their intended results. (See page 6) In regard to the status of the
activities, USAID/Egypt had the following six primary projects during fiscal year 2003. (See
page 6)

•   New Horizons—This project provided basic education services to 22,884 girls and
    women and had partnerships with 73 organizations including community
    development associations and non-governmental organizations supporting USAID
    education programs.
•   Appeal—This project provided scholarships to 4,697 girls and had partnerships with
    three community development associations and non-governmental organizations
    supporting USAID education programs.
•   Integrated English Language Program—This project provided training to 3,677
    teachers to use modern and learner-centered teaching methods.
•   Sesame Workshop—This project provided basic education services to 6,352 young
    women and had partnerships with 37 community development associations and
    non-governmental organizations supporting USAID education programs.
•   New School Program—This project provided basic education services to 17,598 girls
    and had partnerships with 135 community development associations and
    non-governmental organizations supporting USAID education programs.
•   The Alexandria Reform Pilot—This project provided basic education services to
    16,620 girls and had partnerships with 30 community development associations and
    non-governmental organizations supporting USAID education programs.

In regard to progress toward intended results, USAID/Egypt’s basic education activities
exceeded their intended results during fiscal year 2003. For the three performance
indicators selected for testing, the actual results exceeded targets by 45 percent, 8
percent, and 50 percent respectively. In addition, for the remaining six performance
indicators, the reported results met or exceeded targets according to the Mission’s
Performance Management Plan. (See page 8 and Appendix III on page 14)

Even though USAID/Egypt met or exceeded targets for its basic education performance
indicators, reporting errors existed in the accuracy of three reported results out of four
results selected for testing. In addition, one reported target was inaccurate. As a result,
we recommended that the Mission revise its Performance Management Plan and its
succeeding Annual Report to correct the errors noted in this audit report. (See page 10)

To address the recommendation, USAID/Egypt revised its Performance Management
Plan and advised the Asia and Near East Bureau of the errors in its Annual Report.
Appendix II contains management comments in their entirety (without attachments).




                                                                                          1
BACKGROUND
Since 1975, USAID/Egypt has provided more than $700 million through its basic education
program for technical assistance, training, and school construction in three main areas—
education reform, classroom environment, and community-based education programs.
According to Mission documents, USAID/Egypt has helped construct about 2,000 schools
especially in rural Egypt, trained thousands of young women in literacy and life skills,
trained more than 55,000 professionals in Egypt and in the United States, and trained more
than 7,700 teachers and supervisors in English language skills.

During fiscal years 2003 and 2004, USAID/Egypt disbursed $12.7 million and $8.1 million
to support basic education activities.

AUDIT OBJECTIVES
We conducted this audit as part of the Office of Inspector General’s audit plan for fiscal
year 2004 to answer the following questions.

•   What is the status of USAID/Egypt’s basic education activities?

•   Had USAID/Egypt’s education activities progressed toward their intended results?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                                        2
AUDIT FINDINGS
What is the status of USAID/Egypt’s basic education activities?
USAID/Egypt’s basic education activities fall under the Strategic Objective, “Greater
Percentage of Primary and Preparatory School Children, Especially Girls, Acquire Basic
Skills.” In support of this strategic objective, the Mission pursued the following
intermediate results: (a) increased availability and accessibility of schooling, (b) quality
basic education programs that emphasize girls, and (c) systems that provide sustainable
quality teacher training.

During fiscal year 2003, USAID/Egypt had the following projects to achieve these
results:

•   New Horizons—This project sought to expand educational access, increase
    community participation/support, and improve health and educational status for girls
    and young women. The project provides classes in life skills to out-of-school girls
    and young women and provides scholarships to girls. This project began in 1994
    and ended in 2004. Cumulative expenditures as of September 30, 2004, were $12.9
    million.

    During fiscal year 2003, the project provided basic education services to 22,884 girls
    and women. In addition, the project had partnerships with 73 organizations including
    community development associations and non-governmental organizations
    supporting USAID education programs. A similar New Visions project benefiting
    boys started in 2002.

•   Appeal—This project was designed to increase access to education for girls by
    providing scholarships. The project also sought to increase community and family
    participation in girls education and determine economic constraints to female
    enrollment in primary schools. This project began in 1996 and ended in 2004.
    Cumulative expenditures as of September 30, 2004, were $2.5 million.

    During fiscal year 2003, the project provided scholarships to 4,697 girls. In addition,
    the project had partnerships with three community development associations and
    non-governmental organizations supporting USAID education programs.

•   Integrated English Language Program—This project was intended to design and
    deliver quality training for both current and future English language teachers and the
    Ministry of Education of the Government of Egypt. This project began in 1997 and
    ended in 2004. Cumulative expenditures as of September 30, 2004, were $34.8
    million.

    During fiscal year 2003, the project provided training to 3,677 teachers to use
    modern and learner-centered teaching methods.

•   Sesame Workshop—This project used television programs to improve children's
    school readiness and increase basic literacy and numeracy skills. In addition, this
    project included a community outreach training program for parents, caregivers, and

                                                                                          3
    teachers. This project began in 1997 and is scheduled to end in 2007. Cumulative
    expenditures as of September 30, 2004 were $9.4 million.

    During fiscal year 2003, the program provided basic education services to 6,352
    young women. In addition, the project had partnerships with 37 community
    development associations and non-governmental organizations supporting USAID
    education programs.

•   New School Program—This project funded the construction of new primary and
    secondary schools using a community development approach and targets girls age
    six to 14 that have never enrolled or have dropped out of school. This project began
    in 2000 and was scheduled to end in 2005. Cumulative expenditures as of
    September 30, 2004, were $24.8 million.

    During fiscal year 2003, the project provided basic education services to 17,598 girls.
    In addition, the project had partnerships with 135 community development
    associations and non-governmental organizations supporting USAID education
    programs. The girls pass rate percentage in USAID funded primary schools and
    programs was 96 percent.

•   The Alexandria Reform Pilot—This project was intended to improve the quality of
    education through decentralized school management and decision-making,
    increased community involvement, and enhanced training of teachers and
    administrators. This project began in 2001 and was scheduled to end in 2009.
    Cumulative expenditures as of September 30, 2004 were $3.1 million.

    During fiscal year 2003, the project provided basic education services to 16,620 girls.
    In addition, the project had partnerships with 30 community development
    associations and non-governmental organizations supporting USAID education
    programs.

Appendix III lists all of USAID/Egypt’s performance indicators for basic education from
the Mission’s Performance Management Plan and their fiscal year 2003 results.

Had USAID/Egypt’s education activities progressed toward their
intended results?
During fiscal year 2003, USAID/Egypt’s basic education activities exceeded their
intended results. For the three performance indicators selected1 for testing, the
performance results exceeded targets by 45 percent, 8 percent, and 50 percent
respectively. In addition, for the remaining six performance indicators, the reported

1
  The three selected performance indicators were (1) annual number of girls and women
receiving basic education through USAID-funded programs, (2) pass rate percentage of
primary school children in USAID-funded schools and programs by gender under the
New Schools Program (We did not test pass rate percentage for males.), and (3) annual
number of community development associations, non-governmental organizations,
parent/teacher councils, community education teams and public, private partners
actively supporting formal and non-formal USAID education programs (scholarship, life
skills, parental education and outreach).

                                                                                         4
results met or exceeded targets according to the Mission’s Performance Management
Plan.

Even though USAID/Egypt met or exceeded targets for its basic education performance
indicators, reporting errors existed in the accuracy of three reported results for fiscal year
2003 out of four results selected for testing. In addition, one reported target was
inaccurate. The following section discusses these issues.

Performance Management Plan and
Annual Report Need Correction

    Summary: Government standards for internal control require the accurate and timely
    recording of transactions and events. Contrary to these standards, USAID/Egypt
    reported data that was in error in three reported results and one reported target. The
    inaccurate reporting occurred because USAID/Egypt needed better controls over
    results and targets reported in the Annual report and Performance Management Plan.
    Consequently, the Mission’s Annual Report and Performance Management Plan
    contained inaccurate information on basic education activities which increased the
    risk that managers, as well as outside decision makers, may make improper
    conclusions and programmatic decisions.


The United States General Accountability Office issued the “Standards for Internal
Control in the Federal Government” in November 1999. These standards included
examples of control activities to help ensure that management directives are carried out.
One of these activities is the “accurate and timely recording of transactions and events.”

Of four reported results tested, USAID/Egypt reported the following three inaccurate
results for its basic education activities.

•     One performance indicator was annual number of girls and women receiving basic
      education through USAID-funded programs. The reported result for fiscal year 2003
      was 81,073 girls and women. Documentation showed that the result included boys as
      well as girls and women. The actual figure was 68,151 girls and women—a difference
      of 16 percent.

•     One performance indicator was pass rate (percentage) of primary school children in
      USAID-funded schools and programs (from the Performance Management Plan).
      The reported result for fiscal year 2003 was 89 percent. Documentation showed that
      the result should have been calculated based on the formula “number of girls who
      passed the exam divided by number of girls who took the exam”. However,
      USAID/Egypt reported this result based on the formula “number of girls who passed
      the exam divided by number of girls enrolled in school”. The actual figure was 96
      percent—a difference of 8 percent.

•     One performance indicator was annual number of girls scholarships (from the narrative
      portion of the USAID/Egypt Annual Report disclosing results for fiscal year 2003). The
      reported result for fiscal year 2003 was 6,295 girls. Documentation showed that the
      result included boys as well as girls. The actual figure was 5,933 girls—a difference of
      6 percent.


                                                                                             5
In one instance, USAID/Egypt reported the following inaccurate performance indicator
target for its basic education activities.

•   One performance indicator was annual number of girls and women receiving basic
    education through USAID-funded programs. The reported target for fiscal year 2003 in
    the Annual Report was 23,386 girls and women. However, the Mission’s Performance
    Management Plan showed that the target was 46,877 girls and women—a difference of
    50 percent. Discrepancies also existed for the fiscal year 2002 target.

The inaccurate reporting occurred because controls over results and targets reported in
the Annual Report and Performance Management Plan needed improvement. The
Mission’s project officers had not questioned results reported by its implementing
organizations. One Mission official did review all the reported results and traced them to
a source document. However, since project officers had not tested or verified the results
in source documents, inaccurate results found their way into the Performance
Management Plan and the Annual Report.

The reporting of inaccurate results and targets in USAID/Egypt’s Annual Report and
Performance Management Plan raised the risk that managers at USAID/Egypt and
USAID/Washington, as well as decision makers outside of USAID, may make improper
conclusions and programmatic decisions about the Mission’s basic education activities
program. To help prevent future reporting errors, USAID/Egypt needed to strengthen its
monitoring of reported results and targets to ensure that reported data is accurate.

Subsequent to the USAID/Egypt Annual Report disclosing results for fiscal year 2003,
USAID/Egypt issued Mission Order No. 203-1, dated February 2004, to provide
Mission-specific guidelines and assign responsibilities for managing and evaluating the
performance of activities and the achievement of objectives. The Mission Order said
that strategic objective teams were responsible for “monitoring and verifying the
accuracy of reported results by regularly conducting site and field visits to review data
collection and documentation at its source.”

In addition to the Mission Order, in its response to a previous audit 2, USAID/Egypt said
that Annual Report Guidance will include the requirement that Associate Directors and/or
Division Chiefs of technical offices attest in writing through a memo to the program office
that the annual performance data/results reported in their Performance Management Plan
was verified by their strategic objective teams. As the Annual Report Guidance covers all
strategic objectives, we are not including a recommendation to address controls to ensure
the accuracy of reported data. However, USAID/Egypt still needed to correct prior
reporting errors.

       Recommendation No. 1: We recommend that the Director, USAID/Egypt,
       revise the Performance Management Plan and the Annual Report to
       correct the errors noted by this audit.



2
 Audit of USAID-Financed Democracy and Governance Activities in Egypt, Audit Report
No. 6-263-04-006-P, dated July 12, 2004

                                                                                         6
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Egypt revised its Performance Management
Plan and advised the Asia and Near East Bureau of the errors in its Annual Report.
Based on the actions taken to implement the recommendation, both a management
decision and final action have been reached for Recommendation No. 1. Appendix II
contains management’s c omments in their entirety (without attachments).




                                                                                 7
                                                                            APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Cairo audited the USAID/Egypt’s basic education
activities in accordance with generally accepted government auditing standards. The
purpose of the audit was (1) to determine the status of USAID/Egypt’s basic education
activities and (2) to determine if USAID/Egypt’s education activities had progressed
toward their intended results.

We performed our fieldwork at USAID/Egypt and at the offices of the Mission’s
implementing organizations : The Center for Development and Population Activities, Al
Karma Edutainment, Save the Children, and CARE. We also performed fieldwork at the
Ministry of Education, Alexandria Governorate, and at project sites in Minya, Alexandria,
Beni Suif, and Fayoum. Fieldwork was performed from February 29, 2004, to January
11, 2005.

The audit scope included assessing significant management controls over the reporting of
performance results. Such controls included how implementing organizations collected,
verified, and reported performance data and how USAID/Egypt collected, verified, and
reported those results in its Annual Report. The audit scope also included reviews of the
Mission’s Annual Reports, Performance Management Plans, as well as interviews with
USAID, implementing organizations , and Government of Egypt officials. There were no
prior audit findings affecting the Mission’s basic education activities.

In addition, the audit included tests on reported results for fiscal year 2003 for four
performance indicators and/or results that USAID/Egypt used for its basic education
activities. Our tests included reviewing USAID/Egypt’s Annual Report and Performance
Management Plan and tracing reported data back to source documents. We also
assessed the quality of reported data.

Methodology
At the beginning of the audit fieldwork, we interviewed USAID/Egypt’s basic education
strategic objective team to gain an understanding of the Mission’s activities and to
determine which performance indicators were the most significant. In collaboration with
Mission officials, we selected 3 of 9 performance indicators for testing. Mission officials
suggested thes e performance indicators based on the expectation that they would be used
in the new education strategy. In addition, at the request of Mission officials, we also
selected for testing one indicator from the narrative portion of the USAID/Egypt Annual
Report disclosing results for fiscal year 2003. The testing methodology was as follows.

1. Annual number of girls and women receiving basic education through USAID-funded
   programs (from the Performance Management Plan)

   To assess the accuracy of reported results, we chose a 90 percent confidence level
   and assumed an error rate of 5 percent. We randomly selected 82 of 70,805 initially
   identified beneficiaries from fiscal year 2003 to test. (Our audit confirmed that the


                                                                                         8
                                                                               APPENDIX I

   actual number of beneficiaries was slightly less—68,151.) During our testing to confirm
   girls and women receiving basic education programs, we reviewed class attendance
   sheets, tuition receipts, books distribution reports, signed graduation statements, and
   Government of Egypt’s official school enrollment registers. We also interviewed girl
   and women beneficiaries.

2. Pass rate (percentage) of primary school children in USAID-funded schools and
   programs (from the Performance Management Plan)

   To assess the accuracy of reported results, we chose a 90 percent confidence level
   and assumed an error rate of 5 percent. We randomly selected 51 of 130 schools from
   fiscal year 2003 to test. During our testing, we reviewed the official passing rates
   reports approved by the respective schools.

3. Annual number of community development associations, non-governmental
   organizations, parent/teacher councils, community education teams and public/private
   partners actively supporting formal and non-formal USAID education programs (from
   the Performance Management Plan)

   To assess the accuracy of reported results, we chose a 90 percent confidence level
   and assumed an error rate of 5 percent. We randomly selected 65 of 278 organizations
   from fiscal year 2003 to test. During our testing, we reviewed Memoranda of
   Understanding, Grant Agreements, work plans, minutes of meetings, and monthly
   activity reports of the organizations.

4. Annual number of girls scholarships (from the narrative portion of the USAID/Egypt
   Annual Report disclosing results for fiscal year 2003)

   To assess the accuracy of reported results, we chose a 90 percent confidence level
   and assumed an error rate of 5 percent. We randomly selected 81 of 6,295 initially
   identified girls’ scholarships from fiscal year 2003 to test. (Our audit confirmed that the
   actual number of girls’ scholarships was slightly less—5,933.) During our testing we
   reviewed scholarship application forms, tuition receipts, and scholarship receipt
   records.

To determine whether performance results were accurately reported, we used a five
percent accuracy threshold between reported results and the results attested by our audit.

To determine whether a performance indicator achieved its intended result, we used a
reportable condition threshold of 10 percent. That is, if the actual or reported performance
result was within 10 percent of its annual target or any amount over the target, we
concluded that the performance indicator had met its target and that the project had
achieved its intended result for that year.




                                                                                            9
                                                                 APPENDIX II


MEMORANDUM


TO:         RIG/Cairo, David H. Pritchard

FROM:       D/DIR, Mary C. Ott       “/s/”

SUBJECT: Mission Response to USAID/Cairo Basic Education Activity
         Audit

      This is to respond to the Audit Recommendation No. 1 presented in
the Draft Report on Audit of USAID/Egypt’s Basic Education Activities
(Report No. 6-263-05-00x-P):

Recommendation No. 1:

Recommendation No. 1: We recommend that the Director,
USAID/Egypt, require the basic education strategic objective team
to revise its Performance Monitoring Plan (PMP) and succeeding
Annual Report to correct the errors noted by this audit.

Four errors were noted in this report; responses follow each item:

   • The fiscal year 2003 reported result for the indicator: annual number
     of girls and women receiving basic education through USAID-funded
     programs, was 81,073 girls and women. However, documentation
     showed that the result included boys as well as girls and women. The
     actual figure was 68,151 girls and women.

      Response: The education team revised this indicator in the PMP for
      2003 and submitted it to the Program Office on January 17, 2005.
      (See the e-mail dated January 17, 2005 in attachment 1.) The
      Program Office submitted the revisions to USAID/Washington and
      they are being processed in the ANE Bureau. The education team will
      correct this indicator in the Annual Report indicator table when they
      submit the 2005 Annual Report.

   • The fiscal year 2003 report result for the performance indicator: pass
     rate (percentage) of primary school children in USAID-funded
     schools and programs (from the Performance Monitoring Plan) was

                                                                          10
                                                            APPENDIX II


   89 percent. Documentation showed that the result should have been
   calculated based on the formula “number of girls who passed the
   exam divided by number of girls who took the exam.” However,
   USAID/Egypt reported its results based on the formula “number of
   girls who passed the exam divided by number of girls who enrolled in
   school.” The actual figure was 96 percent.

   Response: The education team notes that this error in calculation was
   likely based on a miscommunication of the definition of the indicator
   to the project implementers. In fact, from a project performance
   perspective, the number actually reported provides better information
   with regard to the achieving of project objectives. Limiting the
   population reviewed to the number of students who take the exam
   precludes a possible look at the reasons why students may choose not
   to take the exam. In addition, this calculation excludes part of the
   beneficiary population as the USAID project activities were designed
   to reach all children enrolled in the program, not only those who
   choose to take the exam at the end of the year.

   Therefore, the education team changed the definition of the indicator
   formula for the pass rate (percentage) of primary school children in
   USAID-funded schools and programs to reflect the actual data
   reported. The revised PMP was submitted to the Program Office on
   January 17, 2005. (See attachment 1.) The Program Office submitted
   the revisions to USAID/Washington and they are being processed in
   the ANE Bureau. This change did not affect the numbers reported in
   the Annual Report. No future changes to the Annual Report are
   needed.

• The fiscal year 2003 reported target in the Annual Report for the
  performance indicator: number of girls and women receiving basic
  education through USAID-funded programs was 23,386. However,
  the Mission’s Performance Monitoring Plan showed that the target
  was 46,877 girls and women. The Annual Report for Fiscal Year
  2003 results also showed discrepancies between its figures and the
  Performance Monitoring Plan for the Fiscal Year 2002 target.

   Response: The education team revised the target for this indicator in
   the PMP for 2003 and submitted it to the Program Office on January
   17, 2005. The education team will correct both the 2002 and the 2003

                                                                       11
                                                                APPENDIX II


      target numbers in the Annual Report indicator table when it is
      submitted for the 2005 Annual Report. (See attachment 1.) The
      Program Office submitted the revisions to USAID/Washington and
      they are being processed in the ANE Bureau.

   • The performance indicator annual number of girls’ scholarships (from
     the narrative portion of the USAID/Egypt Annual Report disclosing
     results for fiscal year 2003) was reported as 6,295 girls. However,
     documentation showed that the result included boys as well as girls
     and women. The actual figure was 5,933 girls.

      Response: The education team submitted the correct numbers to the
      Program Office on March 7, 2005. (See the e-mail dated March 7,
      2005 in attachment 2.) The Program Office submitted the revisions to
      USAID/Washington and they are being processed in the ANE Bureau.
      The Program Office submitted the revisions to USAID/Washington
      and they are being processed in the ANE Bureau. This performance
      indicator appeared only in the Annual Report narrative. Thus, the
      correction did not affect the PMP or the indicator table in the Annual
      Report, and no future changes to these documents are required.

      The results of this Audit as well as the management actions taken
have been recorded in an information memo sent to the Assistant
Administrator for the Asia and Near East Bureau (Attachment 3).




                                                                          12
                                                                                               APPENDIX III


                          Fiscal Year 2003 Basic Education Activities
                              Performance Indicators and Results
                             (from Performance Management Plan)
                                                                                               Below/Above
     Performance Indicator                 Planned Reported          Actual      Difference3      Target
1.   Percentage of learners ages
     11-15, enrolled in preparatory                                   Not                        3% Above
     school in Rural, Upper Egypt.           76%        78.5%       Audited        +2.5%          Target
2.   Percentage of learners over
     age 15, enrolled in education                                    Not                        7% Above
     in Rural, Upper Egypt.                  37%        39.6%       Audited        +2.6%          Target
3.   Annual number of girls and
     women receiving basic
     education through USAID-                                        68,151                     45% Above
     funded programs.                      46,877      81,073       (Audited)     +21,274         Target
4.   Pass rate (percentage) of
     primary school children in                                      96.4%                       8% Above
     USAID-funded schools and                                      (F-Audited)                   Target (F)
     programs (by gender under the                     89% (F)       (M-Not      +7.4% (F)       1% Above
     New Schools Program).                   89%       90% (M)      Audited))    +1.0% (M)       Target (M)
5.   Percentage of girls, ages 6-10,                                                             Met Target
     enrolled in primary school in                                    Not                         (Within
     Rural, Upper Egypt.                     77%        72.8%       Audited        -4.2%         Threshold)
6.   Annual number of children with
     increased access to preschool
     education through the                                            Not                       33% Above
     broadcast of “Alam Simsim”.           6 million   8 million    Audited      +2 million       Target
7.   Annual number of community
     development associations,
     non-governmental
     organizations, parent/teacher
     councils, community education
     teams and public, private
     partners actively supporting
     formal and non-formal USAID
     education programs
     (scholarship, life skills, parental                              278                       50% Above
     education and outreach).                185         278        (Audited)       +93           Target
8.   Percentage of Integrated
     English Language Program-II
     trained teachers whose
     students use English in a                                        Not
     meaningful way.                         80%         80%        Audited         0%           Met Target
9.   Annual numbers of teachers
     trained to use modern
     communicative and learner-                                       Not                       62% Above
     center teaching methods.               3,613       5,861       Audited        +2,248         Target



3
 Difference is planned minus actual for results audited and planned minus reported for results not
audited.

                                                                                                          13
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
         Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
